No, 1

S 'A 13-73

In The
Supreme Court of the United States

FILED
JUN 1 9 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Anmarie Calgaro,
Petitioner,
vs.

St. Louis County; Linnea Mirsch, individually and in her official capacity as Interim
Director of St. Louis County Public Health and Human Services; Fairview Health
Services, a Minnesota nonprofit corporation; Park Nicollet Health Services, a
nonprofit corporation; St. Louis County School District; and Michael Johnson,
individually and in his official capacity as Principal of the Cherry School, St. Louis
County School District, and E.J.K.,
Respondents.

MOTION FOR EXTENSION OF TIME TO FILE PETITION

To:

The Honorable Neil M. Gorsuch, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the U.S. Court of Appeals for the
Eighth Circuit.
Petitioner Anmarie Calgaro, through her attorney, makes application for an

extension of time under 28 U.S.C. § 210(c) and Supreme Court Rule 13, to file a
petition for a writ certiorari from June 24, 2019 to Tuesday, August 6, 2019.

The appellate judgment sought to be reviewed is from the U.S. Court of
Appeals for the Eighth Circuit, Calgaro v. St. Louis County, 919 F.3d 1054 (8th Cir.
2019) dated March 25, 2019. The appellate decision is attached.
REASONS FOR GRANTNG THE EXTENSION
Supreme Court Rule 13 requires an applicant for an extension of time to set
out specific reasons why the application should be granted.
The issues Calgaro upon which she seeks review, we believe, are of first
impression in the factual context given. They involve parental rights, emancipation of
a minor, medical aid to a minor for a sex change without giving notice to the parents.
The decisions were made for emancipation when the child had not been judicially
determined to be emancipated under Minnesota common law, and when county and
medical institutions were acting as judicial decision-makers to determine emancipation
so as to be considered as state actors for 42 U.S.C. § 1983 due process claims.
There are several reasons for the application for which the extension should be
granted. First, Ms. Calgaro, since the appellate court decision, required time to decide
whether to continue the appellate process, to gather the necessary funds for the
petition to this Court and continue representation, and generally, to generate support
for her petition efforts. She has succeeded.
Second, counsel of record has had and continues to experience several conflicts
of timing issues related to his appellate and litigation practice. For instance, a
response is due on a petition for review to the Minnesota Supreme Court on June 18,
2

2019 in the matter Save Lake Calhoun v. Sarah Strommen, Commissioner of the Minnesota
Department of Natural Resources (Minn. Sup. Ct. File No. A18-1007). Counsel
successfully represented the Respondent Save Lake Calhoun in the appellate court
which reversed the district court decision concerning issues related to the executive
branch authority of the Commissioner. Issues revolve around statutory interpretation,
executive branch authority, and procedure in changing geographic names in existence
for decades (here for Lake Calhoun, over 150 years). The Commissioner is seeking
review from Minnesota's highest court claiming he has sole authority to affirm
decisions of county boards to change geographic names, although no procedure
allows his office to do so.
Another state appellate court principal brief is due in California. The case,
Cynthia Lopez v. Thic ,Quaempts, et al. (Ct. App. Cal. 3d App. Div. File No. C087445), is a
matter related to tribal officials allegedly doing unauthorized acts resulting in tortious
behavior and whether tribal immunity prevents the claims from going forward to
adjudication when the tribe ratified the alleged wrongful acts after they occurred. The
principal brief is due in two weeks on June 21. Counsel stepped in on the appellate
briefing for the pro se appellant-plaintiff after a third-party requested assistance and
after a final extension had been granted.
In a matter presently before the Eighth Circuit, counsel appealed for Dwight
Mitchell, in Dwight Mitchell v. Dakota County Social Services, et al. (8th Cir. File No. 191419). The underlying federal matter involved the taking of minors from their parents
3

for spanking and then holding them for months although the underlying district court
had no jurisdiction. Meanwhile, the county attempted to place the children with
Mitchell's former wife, a convicted criminal, who was deported to Spain and told one
of the minors to tell the police he abused the children (because he spanked them).
The response briefs raised new issues in the appeal and, hence, makes a reply brief
necessary (if not mandatory in this case). The brief is due July 1st.
Last week, counsel completed a post-trial memorandum related to violations of
Minnesota's campaign finance laws. The trial was before a judicial tribunal in
Minnesota's Office of Administrative Hearings. In Shannon Bruce v. Our Minnetrista, et
al. (OAH 71-0325-35774 consolidated) counsel represented the complainant Shannon
Bruce. Three separate complaints were consolidated into one proceeding. The
underlying issues involved an alleged scheme in which four candidates (also
defendants) used a committee, Our Minnetrista, to avoid reporting of campaign
contributions in excess of campaign contribution limits and expenses as well as other
campaign finance law violations. Ms. Bruce sought the maximum of civil fines to be
imposed and referral to the county attorney for possible criminal conviction. That was
filed on June 7th.
Just before that, counsel filed a mandatory response to a petition for review
before the Minnesota Supreme Court in the Minnesota Secretary of State's effort to
reverse an appellate court decision affirming a district court order related to
Minnesota's Government Data Practices Act. In Andy Cilek and the Minnesota Voters
4

Alliance v. Office of the Minnesota Secretary of State, et al., (Minn. Sup. Ct. File No. A-181140), counsel successfully represented Andy Cilek and his organization, the
Minnesota Voters Alliance as plaintiffs. The Secretary of State reclassified public data
of voters making the data private in a statewide voter registration system which he
had no authority to do so. The public data sought was to assist in studies by Cilek
and his organization to improve Minnesota's voter administration and systems,
particularly in light of a Legislative's audit of previous elections that identified issues
that needed attention. Cilek and the Minnesota Voters Alliance won both at the
district court and appellate court levels.' That petition was filed on May 30th. A
decision on the petition remains pending.
Most recently, on June 14, 2019, counsel filed a motion to dismiss regarding a
major political free speech issue. In R Leigh Frost, Ltd., et al v. Christian Action League of
Minnesota and its agents, a law firm and sole practitioner obtained a temporary
harassment restraining order on counsel's client Christian Action League of
Minnesota. (Minn. Distr. Ct. File No. 27-CV-19-4885). The League and three of its
agents wrote an email and sent three postcards to the law firm asking, without any
threat, to stop advertising in a local Minneapolis, Minnesota newspaper, the City
Pages. The Christian Action League is a 501(c) (3) organization dedicated to curtail
pornography, sexual exploitation, and sex oriented businesses.

Recently, we successfully represented the Minnesota Voters Affiance before this
Court in Minnesota Voters All. v. Mansky, 138 S. Ct. 1876 (2018).
5

The City Pages accepts advertising from sex oriented businesses. Because
Frost advertised in the City Pages, the communications asked if Frost knew about the
City Pages supporting and receiving revenue from sex oriented businesses, asked if
Frost would discontinue the ads, a course of business, and that by giving revenue to
the City Pages, Frost is assisting in the continuation of sexual exploitation. The
Christian Action League had been successful in its passive writing campaign with
other businesses. The memorandum to dismiss also challenged the constitutionality
of Minnesota's harassment statute as it related to pure political speech. The
memorandum was filed on June 14, 2019.
Finally, counsel's colleague, responsible for drafting most of the law firm's
appellate briefs, and the above noted filings as well, will be on vacation with his wife
from June 19 to June 26th. The vacation has been months in the planning and cannot
be postponed. His absence will make meeting the deadline virtually impossible.
Counsel for Anmarie Calgaro, on her behalf, respectfully requests this
application for the extension of time to file a petition for a writ of certiorari be
granted. We understand that under Rule 13, a filing for an extension is usually 10 days
prior to the due date of the petition and as of today, we are unfortunately within that
window of time. However, due to some of the extenuating circumstances described,
we should have filed on Friday, June 14, 2019, but inadvertently missed that date.
Counsel believes the extra time requested for the petition's filing to Tuesday,
August 6, 2019, is necessary and adequate time.
6

CONCLUSION
Therefore, it is respectfully requested that the time within which to file the
petition for a writ of certiorari for Anmarie Calgaro be extended to and including
Tuesday, August 6, 2019.
Dated: June 17, 2019

/s/Erick G. Kaardal
Erick G. Kaardal
Minnesota Attorney No. 229647
SCOTUS Attorney No. 224490
Mohrman, Kaardal & Erickson, P.A.
150 South Fifth Street, Suite 3100
Minneapolis, Minnesota 55402
Telephone: 612-341-1074
Facsimile: 612-341-1076
Email: kaardal@mklaw.com
Attorneys for Petitioner

7

Calgaro v. St. Louis County, 919 F.3d 1054 (2019)
364 Ed. Law Rep. 46

919 F.3d 1054
United States Court of Appeals, Eighth Circuit.
Anmarie CALGARO, Plaintiff - Appellant,
v.
ST. LOUIS COUNTY; Linnea Mirsch,
individually and in her official capacity as
Director of St. Louis County Public Health
and Human Services; Fairview Health
Services, a Minnesota nonprofit
corporation; Park Nicollet Health Services, a
nonprofit corporation; St. Louis County
School District; Michael Johnson,
individually and in his official capacity as
Principal of the Cherry School, St. Louis
County School District; E.J.K., Defendants Appellees.
World Professional. Association for
Transgender Health, Amicus on Behalf of
Appellee(s),
Foundation for Moral Law, Amicus on
Behalf of Appellant(s).

[ II

mother did not state plausible due process claim
against county for deprivation of parental rights;
mother did not state plausible claim against
director of county agency;

[21

health care providers were not state actors, and
thus could not be liable under § 1983;

[31

allegations did not state plausible claim against
school district; and

143

[5] principal was entitled to qualified immunity.
Affirmed.

West Headnotes (11)

No. 17-2279

Civil Rights
Particular Causes of Action

Submitted: October 16, 2018

78Civil Rights
781HFederal Remedies in General
78k1392Pleading
78k1395Particular Causes of Action
78k1395(1)In general

Filed: March 25, 2019

Synopsis
Background: Mother of minor child who resided
apart from her filed § 1983 action against county,
health care providers, school district, and various
officials, alleging that they violated her due process
rights to make decisions concerning the care,
custody, and control of her child, after her request
to obtain her child's health care and educational
records, and to participate in her child's health care
and educational decisions were denied, and seeking
declaratory and injunctive relief to prevent
defendants from providing services to minor child
until state court adjudicated the scope of her
parental rights. The United States District Court for
the District of Minnesota, Paul A. Magnuson, J.,
2017 WL 2269500, granted judgment on the
pleadings and summary judgment in favor of
defendants. Mother appealed.

Holdings: The Court of Appeals, Colloton, Circuit
Judge, held that:

Allegations by mother that a county
employee erroneously determined that
minor child who resided apart from
mother was emancipated and paid for her
medical services, and that employee acted
based on county custom or policy did not
state plausible § 1983 due process claim
against county for deprivation of
mother's parental rights, absent specific
allegations about the policy or custom
that was the moving force behind the
alleged due process violation. U.S. Const.
Amend. 14; 42 U.S.C.A. § 1983.
Cases that cite this headnote

12j

Civil Rights
0--Governmental Ordinance, Policy,

Vift.'5i LAN © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Calgaro v. St. Louis County, 919 F.3d 1054 (2019)
364 Ed. Law Rep. 46
Practice, or Custom

due process claim against director of
county agency for deprivation of
mother's parental rights, in connection
with county's determination that child
was emancipated from mother, absent
allegations that director personally took
any action that violated mother's due
process rights. U.S. Coast. Amend. 14; 42
U.S.C.A. § 1983.

78Civil Rights
78111Federal Remedies in General
78k I 342Liability of Municipalities and Other
Governmental Bodies
78k135 I Governmental Ordinance, Policy,
Practice, or Custom
78k1351(1 )In general
A county may be liable for a
constitutional violation under § 1983 only
if the violation resulted from a policy or
custom of the county. 42 U.S.C.A. §
1983.
Cases that cite this headnote

131

Cases that cite this headnote

151

Civil Rights
<1=Private Persons or Corporations, in
General
78Civil Rights
78111Federal Remedies in General
78kI323Color of Law
78k1326Particular Cases and Contexts
78k1326(3)Private Persons or Corporations, in
General
78k1326(4)In general

Civil Rights
C> Acts of officers and employees in
general; vicarious liability and
respondeat superior in general
78Civil Rights
78111Federal Remedies in General
78k1342Liability of Municipalities and Other
Governmental Bodies
78k1345Acts of officers and employees in
general; vicarious liability and respondeat
superior in general

Private health care providers who gave
medical treatment to minor child based on
minor's consent because they mistakenly
believed that minor was emancipated
were not "state actors," and thus, could
not be liable in mother's § 1983 due
process claim for deprivation of parental
rights. U.S. Coast. Amend. 14; 42
U.S.C.A. § 1983; Minn. Stat. Ann. §
144.341.

There is no respondeat superior liability
under § 1983 for actions of an• individual
municipal employee. 42 U.S.C.A. § 1983.
Cases that cite this headnote

Cases that cite this headnote

141

Civil Rights
0-,Liability of Public Employees and
Officials
78Civil Rights
7811IFederal Remedies in General
78k1353Liability of Public Employees and
Officials
78k13600ther particular cases and contexts
Mother of minor child who resided apart
from her failed to state plausible § 1983

161

Civil Rights
4-'----Color of Law
78Civil Rights
78111Federal Remedies in General
78k1323Color of Law
78k1324In general
To state a claim under § 1983, a plaintiff
must show that defendants acted under
color of state law. 42 U.S.C.A. § 1983.

WESTLAW (0 2019 Thomson Reuters. No claim to original U.S. Government Works.

Calgary v. St. Louis County, 919 F.3d 1054 (2019)
364 Ed. Law Rep. 46
the school district that caused the
refusals. U.S. Const. Amend. 14; 42
U.S.C.A. § 1983.

Cases that cite this headnote

Cases that cite this headnote
171

Health
(-?-Minors in general; consent of parent or
guardian
Infants
C---Role, power, and authority of courts;
discretion
198F-1-Health
198I1V1Consent of Patient and Substituted
Judgment
198111(911Minors in general; consent of
parent or guardian
211Infants
211XIVDependency, Permanent Custody, and
Termination of Rights; Children in Need
211X1 V(A)In General
211k1826Ro1e, power, and authority of courts;
discretion
Under Minnesota law, a health care
provider does not terminate parental
rights by recognizing a minor's consent
for medical treatment, even if the
provider is mistaken in doing so; only a
court can terminate parental rights. Minn.
Stat. Ann. §§ 144.341, 260C.301.
Cases that cite this headnote

181

Civil Rights
Education
78Civi1 Rights
7811IFederal Remedies in General
78k1392Pleading
78k1395Particular Causes of Action
78k1395(2)Education
Allegations by mother that public school
district refused her requests to obtain
minor child's educational records and to
participate in educational decisions for
minor child did not state plausible § 1983
due process claim against school district
for deprivation of mother's parental
rights, absent nonconclusory allegations
identifying an actual policy or custom of

191

Civil Rights
C—Schools
78C ivil Rights
7811IFederal Remedies in General
78k1372Privilege or Immunity; Good Faith
and Probable Cause
78k1376Government Agencies and Officers
78k] 376(5)Schools
High school principal was entitled to
qualified immunity from liability for his
alleged conduct in refusing mother's
requests to obtain educational records and
to participate in educational decisions for
minor child who did not reside with
mother, in mother's § 1983 due process
claim for deprivation of parental rights; it
was not clearly established whether and
to what extent a parent's fundamental
liberty interest in the custody, care, and
management of a child mandated access
to school records, and it was not clearly
established that parents had constitutional
right to manage all details of child's
education. U.S. Const Amend. 14; 42
U.S.C.A. § 1983.
Cases that cite this headnote

Declaratory Judgment
4Counties and municipalities and their
officers
Declaratory Judgment
(—Education
118ADeclaratory Judgment
118AllSubjects of Declaratory Relief
118A11(1i)Public Officers and Agencies
118Ak209Counties and municipalities and
their officers
118ADeclaratory Judgment
118AIISubjects of Declaratory Relief

INESTIAW 0 2019 Thomson Reuters. No claim to original U.S. Government Works.

Calgaro v. St. Louis County, 919 F.3d 1054 (2019)
364 Ed. Law Rep. 46
118AII(K)Public Officers and Agencies
118Ak210Education
Mother's claims for injunctive and
declaratory relief to prevent Minnesota
county, school district, and others from
providing services to minor child who did
not reside with mother until Minnesota
state court adjudicated the scope of her
parental rights were rendered moot, in §
1983 action, after child reached age of
majority, under Minnesota law. Minn.
Stat. Ann. §§ 256D.05(1)(a)(9),
645.451(2).

for Plaintiff- Appellant.
Nick D. Campanario, Assistant County Attorney,
COUNTY ATTORNEY'S OFFICE, Duluth, MN,
for Defendants - Appellees St. Louis County and
Linnea Mirsch.
William Lawrence Davidson, Joao C.J.G. De
Medeiros, Paul C. Peterson, LIND & JENSEN,
Minneapolis, MN, for Defendant - Appellee
Fairview Health Services.
David M. Wilk, LARSON & KING, Saint Paul,
MN, for Defendant - Appellee Park Nicollet Health
Services.

Cases that cite this headnote

Trevor S. Helmers, Liz J. Vieira, RUPP &
ANDERSON, Minneapolis, MN, for Defendants Appellees St. Louis County School District and
Michael Johnson.

Federal Courts
CAnception and duration of dispute;
recurrence; "capable of repetition yet
evading review"

Martin S. Chester, Emily Elizabeth Chow,
FAEGRE & BAKER, Minneapolis, MN, Asaf Orr,
Christopher F. Stoll, NATIONAL CENTER FOR
LESBIAN RIGHTS, San Francisco, CA, for
Defendant - Appellee.

170BFederal Courts
170B111Case or Controversy Requirement
1701,1111(A)In General
170B k2 1 08Mootness
170Bk2113Inception and duration of dispute;
recurrence; "capable of repetition yet evading
review"
There is an exception to mootness for
cases that are capable of repetition yet
evading review, but the exception applies
only when there is a reasonable
expectation that the alleged actions of the
defendant will recur.

Maureen Alger, COOLEY LLP, Palo Alto, CA,
Adam Gershenson, Cooley LLP, Boston, MA,
Reed A. Smith, Cooley LLC, New York, NY, for
Amicus on Behalf of Appellee World Professional
Association for Transgender Health.
John Allen Eidsmoe, FOUNDATION FOR
MORAL LAW, Montgomery, AL, for Amicus on
Behalf of Appellee Foundation for Moral Law.
Before WOLLMAN, COLLOTON, and BENTON,
Circuit Judges.
Opinion

Cases that cite this headnote
COLLOTON, Circuit Judge.

*1056 Appeal from United States District Court for
the District of Minnesota - Minneapolis —
Attorneys and Law Firms
Thomas J. Brejcha, THOMAS MORE SOCIETY,
Chicago, IL, Matthew F. Heffron, BROWN &
BROWN, Omaha, NE, Erick G. Kaardal,
MOHRMAN & KAARDAL, Minneapolis, MN,
'4E5Tf„11V4t

*1057 Anmarie Calgaro sued several parties
alleging violations of her parental rights over one
of her minor children. under the Due Process
Clause of the Fourteenth Amendment. The district
court' granted the defendants' dispositive motions
and dismissed the complaint with prejudice.
Calgaro appeals, and we affirm.
The Honorable Paul A. Magnuson, United

2019 Thomson Reuters. No claim to original U.S. Government Works.

Calgaro v. St. Louis County, 919 F.3d 1054 (2019)
364 Ed. Law Rep. 46
States District Judge for the District of
Minnesota.

According to Calgaro's complaint, she is the
mother of E.J.K. and three younger, minor
children. In May 2015, E.J.K. moved out of
Calgaro's home in St. Louis County, Minnesota.
Calgaro never surrendered her parental rights, but
E.J.K. obtained a letter from Mid-Minnesota Legal
Aid describing E.J.K.'s father and Calgaro as
"hav[ing] given up control and custody of their
child." The letter concluded that E.J.K. was
therefore "legally emancipated under Minnesota
law."
Although this letter from a legal aid association
had no legal effect, E.J.K. presented the letter to
several state agencies as evidence of emancipation.
Under Minnesota law, a child under age eighteen is
eligible for general public assistance if she is
"legally emancipated." Minn. Stat. § 256D.05,
subdiv. 1(a)(9). Based on E.J.K.'s claims of
emancipation, St. Louis County provided E.J.K.
with funding for medical services and other living
expenses, and E.J.K. obtained gender transition
care from Park Nicollet Health Services. E.J.K.
also received prescription medication from
Fairview Health Services. Both providers thought
E.J.K. could give effective consent to treatment
under Minnesota law because she was living apart
from her parents and managing her personal
financial matters. See Minn. Stat. § 144.341.
When Calgaro attempted to acquire E.J.K.'s
medical records from Park Nicollet and Fairview,
both providers denied her request under the
standard of Minnesota Statutes § 144.346. That
provision allows disclosure of treatment
information if "failure to inform the parent or
guardian would seriously jeopardize the health of
the minor patient." Id. Calgaro also approached
*1058 the St. Louis County School District and
Michael Johnson, the principal of E.J.K.'s high
school, requesting access to E.J.K.'s educational
records and an opportunity to participate in certain
educational,. decisions., Johnson and the School
District denied those requests.
Calgaro then sued St. Louis County, the interim
director of St. Louis County Public Health and
Human Services (individually and in her official
capacity), medical providers Fairview and Park
Nicollet, the St. Louis County School District,

Principal Johnson (individually and in his official
capacity), and E.J.K., as an interested party. She
alleged that the defendants had violated a
fundamental right of a parent, under the Due
Process Clause, to make decisions concerning the
care, custody, and control of her children. Calgaro
claimed damages and also sought declaratory and
injunctive relief that would prevent the defendants
from providing services to any of her minor
children until a state court adjudicated the scope of
her parental rights.
Calgaro moved for summary judgment, and the
defendants filed cross-motions in response. St.
Louis County moved for judgment on the pleadings
and for summary judgment, and the other
defendants moved to dismiss for failure to state a
claim. The district court granted the defendants'
motions, denied Calgaro's motion, and dismissed
the complaint with prejudice. We review those
dismissals de novo.
Ill Ili t31The district court properly granted judgment
on the pleadings for St. Louis County (including
the official-capacity claim against the interim
director) because Calgaro did not adequately plead
a claim under § 1983. A county may be liable for a
constitutional violation under § 1983 only if the
violation resulted from a policy or custom of the
municipality. Alonell v. Dep't of Soc. Servs., 436
U.S. 658, 694, 98 S.Ct. 2018, 56 L.Ed.2d 611
(1978). There is no respondeat superior liability
for actions of an individual employee. Id at 691,
98 S.Ct. 2018. Although Calgaro alleges that the
County's "policies, customs, practices, or
procedures (or lack of procedures)" led to
violations of her due process rights, she never
specified a policy or custom that was the moving
force behind the alleged violation. She pleads only
that the County "determined" that E.J.K. was
emancipated and paid for her medical services. But
one erroneous determination by a county employee
that E.J.K. was emancipated does not establish a
policy or custom of the County that deprives
parents of their constitutional rights. Calgaro's
conclusory assertion that the County acted based
on a policy or custom is insufficient to state a
,
claim, and the district court'borr-eary granted
judgment on the pleadings.
HCalgaro also fails to state a claim for damages
against the then-interim director of Public Health
and Human Services, Linnea Mirsch. The
complaint lists Mirsch's position and title, and

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Calgaro v. St. Louis County, 919 F.3d 1054 (2019)
364 Ed. Law Rep. 46
alleges that "[t]he director is the final decision and
policy maker for the Department." But the
complaint does not allege that Mirsch personally
took any action that violated Calgaro's
constitutional rights, and Mirsch cannot be held
liable for the unconstitutional acts of her
subordinates. Ashcroft v. Iqba/, 556 U.S. 662, 676,
129 S.Ct. 1937, 173 L.Ed.2d 868 (2009). The
district court correctly ruled that Calgaro failed to
state a claim against Mirsch in her individual
capacity.
151 161 FiCalgaro's claims for money damages
against the medical providers fare no better. To
state a claim under § 1983, Calgaro must show that
Park Nicollet and Fairview acted "under color of
state law." *1059 Am. Mfrs. Mitt. Ins. Co. v.
Sullivan, 526 U.S. 40, 49-50, 119 S.Ct. 977, 143
L.Ed.2d 130 (1999). Although both facilities
provided medical services to E.J.K. without
parental consent, and allegedly honored E.J.K.'s
consent in accordance with § 144.341 of the
Minnesota Statutes, these actions did not transform
either medical provider into a state actor. 526 U.S.
at 52, 119 S.Ct. 977. Calgaro contends that the
providers exercised a "public function" by
terminating her parental rights concerning health
care decisions, but this claim mischaracterizes what
happened. Section 144.341 states that certain
minors may give effective consent to medical
services, but a provider does not terminate parental
rights by recognizing a minor's consent, even if the
provider is mistaken. Only a Minnesota court can
terminate parental rights. See Minn. Stat. §
260C.301.

IsiCalgaro next claims that the St. Louis County
School District (including Principal Johnson in his
official capacity) violated her rights by carrying out
a "policy, practice, and custom" of declining to
give notice or to hold a hearing with parents before
determining that a minor student is emancipated.
We agree with the district court that Calgaro
alleged only a legal conclusion on this point. The
complaint identifies no actual policy or established
custom of the District about making emancipation
determinations., Calgaro cites only the single
incidenr at issue hel-e; in Which the District refusedto disclose E.J.K.'s educational records or to allow
Calgaro to participate in E.J.K.'s educational
decisions. The District's alleged handling of this
particular case, even assuming that it interfered
with Calgaro's constitutional rights, is insufficient
to establish a custom or practice under Monell. 436
WESTLAW

U.S. at 694, 98 S.Ct. 2018.
l91Calgaro also sued Johnson individually for
damages on the ground that he violated her
constitutional rights by denying access to
educational records and excluding her from
educational decisions. But it remains "open to
question whether and to what extent the
fundamental liberty interest in the custody, care,
and management of one's children mandates
parental access to school records." Schmidt v. Des
Moines Pub. Sch., 655 F.3d 811, 819 (8th Cir.
2011). Nor is it clearly established that parents
have a constitutional right to manage all details of
their children's education or to obtain consultation
with school officials on everyday matters. See
Stevenson v. Blytheville Sch. Dist. #5, 800 F.3d
955, 966 (8th Cir. 2015). Because existing
precedent does not clearly establish the rights that
Calgaro asserts, Johnson is entitled to qualified
immunity. Ashcroft v. al-Kidd, 563 U.S. 731, 741,
131 S.Ct. 2074, 179 L.Ed.2d 1149 (2010.

"Calgaro's remaining claims for declaratory
and injunctive relief against the several defendants
are moot. E.J.K. has turned eighteen years old,
ceased to be a minor under Minnesota law, and
completed her education in the St. Louis County
School District. See Minn. Stat. § 645.451, subdiv.
2. There is no ongoing case or controversy over
Calgaro's parental rights to make decisions for
E.J.K. as a minor or to access her medical or
educational records. That Calgaro has three other
minor children does not preserve a controversy.
There is an exception to mootness for cases that are
capable of repetition yet evading review, but the
exception applies only when there is a reasonable
expectation that the alleged actions of the
defendant will recur. Murphy v. Hunt. 455 U.S.
478, 482, 102 S.Ct. 1181, 71 L.Ed.2d 353 (1982)
(per curiam). Calgaro seeks an injunction against
actions directed toward "the minor children of Ms.
Calgaro deemed emancipated by Defendants
without Ms. Calgaro's consent." But Calgaro has
not established a reasonable expectation that any of
her three minor children will be deemed
emancipated by *1060 the defendants. The claims
for declaratory and injunctive relief aii-tlierefore
moot.

1101 1

E.J.K. was joined in the lawsuit as an interested
party under Federal Rule of Civil Procedure
19(a)(1)(B)(i). Given that none of Calgaro's claims
against the other defendants may proceed, the

2019 Thomson Reuters. No claim to original LIS. Government Works.

Calgaro v. St. Louis County, 919 F.3d 1054 (2019)
364 Ed. Law Rep. 46

district court properly dismissed any claims against
E.J.K. as well.

All Citations

919 F.3d 1054, 364 Ed. Law Rep. 46
The judgment of the district court is affirmed.
End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

No.

In The
Supreme Court of the United States

Anmarie Calgaro,
Petitioner,
vs.

St. Louis County; Linnea Mirsch, individually and in her official capacity as Interim
Director of St. Louis County Public Health and Human Services; Fairview Health
Services, a Minnesota nonprofit corporation; Park Nicollet Health Services, a
nonprofit corporation; St. Louis County School District; and Michael Johnson,
individually and in his official capacity as Principal of the Cherry School, St. Louis
County School District, and E.J.K.,

Respondents.

AFFIDAVIT OF SERVICE

STATE OF MINNESOTA
) ss.
COUNTY OF HENNEPIN
Johanna Juris, of the City of Minneapolis, County of Hennepin, State of
Minnesota, being affirmed on oath, says that on the 18th day of June, 2019 she served
the following:
1. Petitioner's Application for Extension;

on the following parties in this action, through their respective attorneys, by Email
and U.S. Mail, a true and correct copy thereof, enclosed in an envelope postage prepaid, and directed to the following at their last known address:
Maureen Alger
COOLEY LLP
3175 Hanover Street
Palo Alto, CA 94304
Email: malger@cooley.com
Nick D. Campanario
COUNTY ATTORNEY'S OFFICE
Room 501
100 N. Fifth Avenue, W.
Duluth, MN 55802-2322
Email: campanarion@stlouiscountymn.gov
Martin S. Chester
FAEGRE & BAKER
2200 Wells Fargo Center
90 S. Seventh Street
Minneapolis, MN 55402-3901
Email: martin.chester@faegreBD.corn
Emily Elizabeth Chow
FAEGRE & BAKER
2200 Wells Fargo Center
90 S. Seventh Street
Minneapolis, MN 55402-3901
Email: emily.chow@faegrebd.com
William Lawrence Davidson
LIND & JENSEN
Suite 1300
901 Marquette Avenue, S.
Minneapolis, MN 55402
Email: william.davidson@lindjensen.com

2

Joao C.J.G. De Medeiros
LIND & JENSEN
Suite 1300
901 Marquette Avenue, S.
Minneapolis, MN 55402
Email: joao.medeiros@lindjensen.com
John Allen Eidsmoe
FOUNDATION FOR MORAL LAW
1 Dexter Avenue
Montgomery, AL 36104-1264
Email: eidsmoeja@juno.com
Adam Gershenson
Cooley LLP
500 Boylston Street
Boston, MA 02116
Email: agershenson@cooley.com
Trevor S. Helmers
RUPP & ANDERSON
Suite 2800
333 S. Seventh Street
Minneapolis, MN 55402
Email: trevothelmers raswlaw.com
Asaf Orr
NATIONAL CENTER FOR LESBIAN RIGHTS
Suite 370
870 Market Street
San Francisco, CA 94102-0000
Email: aorr@nclrights.org
Paul C. Peterson
LIND & JENSEN
Suite 1300
901 Marquette Avenue, S.
Minneapolis, MN 55402
Email: paul.peterson@lindjensen.com

Reed A. Smith
Cooley LLC
1114 Avenue of the Americas
New York, NY 10036
Email: reed.smith@cooley.com
Christopher F. Stoll
NATIONAL CENTER FOR LESBIAN RIGHTS
Suite 370
870 Market Street
San Francisco, CA 94102-0000
Email: cstoll@nclrights.org
Liz J Vieira
RUPP & ANDERSON
Suite 2800
333 S. Seventh Street
Minneapolis, MN 55402
Email: liz.vieira raswlaw.com
David M. Wilk
LARSON & KING
Suite 2800
30 E. Seventh Street
Saint Paul, MN 55101
Email: dwilk@larsonking.com

Subscribed and sworn to before me this
18th day of June, 2019

Notary Public
,A.AAAAAAAA
,AAAAAAAAAAAA,AAAA,vvvv
,...w,,, WAREN ELYSSE FRANZEN
)

Notary Public-Minnesota

---:,----,' My Commission Expires Jan 31, 2021
Itt:;"

4

